LLC
5614 Connecticut Avenue, NW #307
Washington, DC 20015

202-747-2400
202-449-9565 Fax
LegalPrinters.com

June 24, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

Re:

Jackie Chagolla v. Robert Holya, Arizona DCS, Jessica Solis,
Patricia Ward, Liz Vullo

Dear Sir or Madam:
I hereby certify that at the request of the Petitioner, on June 24, 2021,1 caused
service to be made pursuant to Rule 29 and the Temporary Order of April 15, 2020, on
the following Respondents:
RESPONDENTS ARIZONA DCS, et al.:
Office of Mark Brnovich
Arizona Attorney General
2005 N. Central Ave.
Phoenix, AZ 85004
602-542-5025
deborah.garner@azag.gov

RESPONDENT LIZ VULLO:
Georgia A. Stanton
Jones, Skelton & Hochuli, PLC
40 N. Central Ave. #2700
Phoenix, AZ 85004
602-263-1752
gstaton@jshfirm.com
rpatel@jshfirm.com
e gilbride@j shfir m .com

This service was effected by depositing one copy of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,
)

Jack Suber, Esq.
Principal

RECEIVED
JUN 2 8 2021
LISA KAY NICHOLSON
,
Notary Public
1 State of Maryland
’ Montgomery County
My commission exp. October 12,2022

Sworn and subscribed before me this 24th day of June 2021.

